No. ____________________
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020
ALBERTO JULIO GARCIA
Petitioner,
vs.
STATE OF MISSISSIPPI,
Respondent
THIS IS A CAPITAL [DEATH PENALTY] CASE
CERTIFICATE OF SERVICE OF
PETITION FOR WRIT OF CERTIORARI
& MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
I, André de Gruy, a member of the Bar of this Court, hereby certify that on the
8th
day of February, 2021, I deposited at the main post office at 401 East South
Street, Jackson, Mississippi, the originals of the Petition for Writ of Certiorari, the
Motion for Leave to Proceed in Forma Pauperis, and this Certificate of Service, for
mailing, postage prepaid, to the Hon. Scott S. Harris, Clerk of the Supreme Court of
the United States, First Street, NE. Washington, DC 20543. With permission, counsel
for the Respondent State of Mississippi, Brad A. Smith, Esq. and Candice L. Rucker,
Esq., Special Assistant Attorneys General, Post Office Box 220, Jackson, MS 39205,
telephone number (601) 359-3680, have been served electronically only via email to
Brad.Smith@ago.ms.gov, Candice.Rucker@ago.ms.gov. I further certify pursuant to
Supreme Court Rule 29 that all parties required to be served have been served by the
means stated.
s/ André de Gruy
André de Gruy*
Alison Steiner
Office of the State Public Defender
239 N. Lamar Street, Suite 601
Jackson, MS 39201
601-576-2315
adegr@ospd.ms.gov
Counsel for Petitioner
*Counsel of Record

